        FORM SEC-1000                         OFFICE OF INSPECTOR GENERAL                             NATIONAL SCIENCE FOUNDATON
        (642)                                   OFFICE OF 1NVESTlCATlONS                                               ;I'




    I                                    ACTION MEMORANDUM                                                                         1
        TO: AIGI                                                           FILE NUMBER
                                                                           1-01020001

                                                                           OFFICE OF ORIGIN           PREPARING OFFICE
                                                                           NSFI OIG                   NSF/ OIG




        FALSE STATEMENTS




        This investigation was predicated on January 1 1,2001, after information was received that employees of the
                                                                      improperly billed travel costs to a National Science
        Foundation (NSF) grant. It was also alleged by                                                                    )that
        an         .mployee i ~ l l p e r s o n a t e m t oobtain ail extension for an NSF award and r e ~ n o v e a the
                                                                                                                       s


        A review of NSF records relating to the                                             (File Number:
         - - - . ) failed to support the allegations that     misappropriated the monies. An interview o f l l l )
    0                program Director, Division of Biological Infrastructure, did not develop any indication of                        I
        improprie~)by           c~llyloyees.                                                                                           1I
                                                                                                                                       I
                                                                                                                                       1
                                                                                                                                       I
        Based upon their findings, the investigation is closed. A management control deficiency report will not be
        issued and no other judicial or administrative action will be taken, since there was no identified loss to the
        Government.
                                                                                                                                       i


I

        COPIES MADE:                                                                                   (For Headquarters Use)


                                                                                                       -------------------

    SURNAME              PREPARED BY        CLEARED BY           CLEARED BY              CLEARED BY
    & TITLE              Special Agent
                                                             I                       I     I




        INITIALS                                                                 I
    & DATE
                         05/15/01
                                                                     I /   - 1
